Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  INAPPROPRIATE PAYMENTS
     TO SKILLED NURSING
  FACILITIES COST MEDICARE
    MORE THAN A BILLION
       DOLLARS IN 2009



                    Daniel R. Levinson
                     Inspector General

                     November 2012
                     OEI-02-09-00200
EXECUTIVE SUMMARY: INAPPROPRIATE PAYMENTS TO SKILLED
NURSING FACILITIES COST MEDICARE MORE THAN A BILLION DOLLARS
IN 2009
OEI-02-09-00200

WHY WE DID THIS STUDY

In recent years, the Office of Inspector General has identified a number of problems with
billing by skilled nursing facilities (SNF), including the submission of inaccurate,
medically unnecessary, and fraudulent claims. Further, the Medicare Payment Advisory
Commission has raised concerns about SNFs’ improperly billing for therapy to obtain
additional Medicare payments. In fiscal year (FY) 2012, Medicare paid $32.2 billion for
SNF services.

HOW WE DID THIS STUDY

We based this study on a medical record review of a stratified random sample of SNF
claims from 2009. The reviewers determined whether the information reported by the
SNFs on the Minimum Data Set (MDS) was supported by and consistent with the
medical record. The MDS is a standardized tool that SNFs use to assess each
beneficiary. SNFs use the information on the MDS to classify beneficiaries into resource
utilization groups (RUG). The RUGs determine how much Medicare pays the SNFs.

WHAT WE FOUND

SNFs billed one-quarter of all claims in error in 2009, resulting in $1.5 billion in
inappropriate Medicare payments. The majority of the claims in error were upcoded;
many of these claims were for ultrahigh therapy. The remaining claims in error were
downcoded or did not meet Medicare coverage requirements. In addition, SNFs
misreported information on the MDS for 47 percent of claims. SNFs commonly
misreported therapy, which largely determines the RUG and the amount that Medicare
pays the SNF.

WHAT WE RECOMMEND

We recognize that the Centers for Medicare & Medicaid Services (CMS) has recently
made several significant changes to SNF payments. However, more needs to be done to
reduce inappropriate payments to SNFs. We recommend that CMS: (1) increase and
expand reviews of SNF claims, (2) use its Fraud Prevention System to identify SNFs that
are billing for higher paying RUGs, (3) monitor compliance with new therapy
assessments, (4) change the current method for determining how much therapy is needed
to ensure appropriate payments, (5) improve the accuracy of MDS items, and (6) follow
up on the SNFs that billed in error. CMS concurred with all six recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................10
           SNFs billed one-quarter of claims in error
           in 2009, resulting in $1.5 billion in inappropriate payments .........10
           SNFs misreported information on the MDS for 47 percent of
           claims ............................................................................................. 11
Conclusion and Recommendations ............................................................14
Agency Comments and Office of Inspector General Response.................17
Appendixes ................................................................................................19
           A: Description of the 53 Resource Utilization Groups in Effect
           During Our Review Period ............................................................19
           B: Therapy Minutes Received by Therapy Level .........................21
           C: Sample Design .........................................................................22
           D: Sample Sizes, Point Estimates, and 95-Percent Confidence
           Intervals for Estimates Presented in the Report .............................23
           E: Point Estimates and 95-Percent Confidence Intervals of
           Minimum Data Set Categories With Misreported Information .....24
           F: Agency Comments ....................................................................25
Acknowledgments......................................................................................29
                  OBJECTIVES
                  1. To assess the appropriateness of Medicare payments for skilled
                     nursing facility (SNF) claims in 2009.
                  2. To determine the extent to which SNFs misreported information that
                     affects Medicare payments.

                  BACKGROUND
                  SNFs provide skilled nursing care, rehabilitation services, and other
                  services to Medicare beneficiaries who meet certain conditions. In fiscal
                  year (FY) 2012, Medicare paid $32.2 billion for SNF services. 1
                  The Office of Inspector General (OIG) has identified a number of
                  problems with SNF billing. Notably, OIG found that 26 percent of claims
                  submitted by SNFs in FY 2002 were not supported by the medical record,
                  representing $542 million in potential overpayments. 2 Recent OIG
                  investigations have also found problems with SNF billing. For example,
                  one SNF reached a settlement agreement on allegations of fraudulent
                  billing for medically unnecessary therapy. 3
                  Further, the Medicare Payment Advisory Commission (MedPAC) has
                  raised concerns about SNFs’ improperly billing for therapy to obtain
                  additional Medicare payments. Specifically, MedPAC noted that the
                  payment system “encourages SNFs to furnish therapy, even when it is of
                  little or no benefit.” 4
                  This study is part of a larger body of work about SNF payments and
                  quality of care. The first study found that from 2006 to 2008, SNFs
                  increasingly billed for higher paying categories, even though beneficiary



                  1
                   Centers for Medicare & Medicaid Services (CMS), 2012 CMS Statistics, Table III.6.
                  Accessed at https://www.cms.gov/ResearchGenInfo/02_CMSStatistics.asp on September
                  14, 2012.
                  2
                   OIG, A Review of Nursing Facility Resource Utilization Groups, OEI-02-02-00830,
                  February 2006.
                  3
                   Department of Justice, Council Bluffs Area Nursing Home Reaches Settlement
                  Agreement on Allegations of Fraudulent Billing to Medicare for Physical, Occupational,
                  and Speech Therapy Services, June 28, 2012. Accessed at
                  http://www.justice.gov/usao/ias/news/2012/Bethany%20Lutheran%20Homes%206-28-
                  2012.html on July 12, 2012.
                  4
                    MedPAC, Report to Congress: Promoting Greater Efficiency in Medicare, ch. 8, p.
                  191, June 2007. MedPAC reiterated this concern in response to the planned payment
                  changes in FY 2011. See Report to Congress: Medicare Payment Policy, ch. 7, p. 151,
                  March 2011.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)         1
                  characteristics remained largely unchanged. 5 Another study will assess the
                  extent to which SNFs met certain Federal requirements regarding the
                  quality of care provided to beneficiaries. 6
                  Medicare Coverage Requirements for Part A SNF Stays
                  The Part A SNF benefit covers skilled nursing care, rehabilitation services,
                  and other services. These services commonly include physical,
                  occupational, and speech therapy; skin treatments; and assistance with
                  eating, bathing, and toileting. Medicare covers these services for up to
                  100 days during any spell of illness. 7
                  To qualify for the SNF benefit, the beneficiary must have been in the
                  hospital for at least 3 consecutive days and the hospital stay must have
                  occurred within 30 days of admission to the SNF. 8 The beneficiary must
                  need skilled services daily in an inpatient setting and must require the
                  skills of technical or professional personnel to provide these services. 9 In
                  addition, these services must be ordered by a physician and be for the
                  same condition that the beneficiary was treated for in the hospital. 10
                  Medicare Payments to SNFs
                  Medicare pays SNFs under a prospective payment system. SNFs use a
                  standardized tool known as the Minimum Data Set (MDS) to assess each
                  beneficiary’s clinical condition, functional status, and expected and actual
                  use of services. 11 SNFs use certain items on the MDS to classify
                  beneficiaries into resource utilization groups (RUG). 12 The RUGs
                  determine how much Medicare pays the SNF.




                  5
                    OIG, Questionable Billing in Skilled Nursing Facilities, OEI-02-09-00202,
                  December 2010.
                  6
                    OIG, Medicare Requirements for Quality of Care in Skilled Nursing Facilities,
                  OEI-02-09-00201, forthcoming.
                  7
                      Social Security Act, § 1812(a)(2)(A), 42 U.S.C. § 1395d(a)(2)(A).
                  8
                      42 CFR §§ 409.30(a).
                  9
                      42 CFR §§ 409.31(b)(1) and (3) and 409.31(a)(2).
                  10
                    42 CFR § 409.31. Medicare also covers SNF services if the condition requiring such
                  services arose when the beneficiary was receiving care in a SNF for a condition treated
                  during the prior hospital stay.
                  11
                    The MDS is part of CMS’s Resident Assessment Instrument (RAI). CMS, Revised
                  Long-Term Care Facility Resident Assessment Instrument User’s Manual Version 2.0
                  (RAI Manual 2.0), Dec. 2002, rev. Dec. 2005, § 1.2. SNFs must conduct a
                  comprehensive assessment of each beneficiary’s needs using the RAI.
                  42 CFR § 483.20(b).
                  12
                    RAI Manual 2.0, § 1.3. At the time of our review, 108 MDS items were used to
                  determine the RUG.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)          2
                  For many of the MDS items, SNFs assess the beneficiary during what is
                  called the look-back period. 13 SNFs report this information on the MDS,
                  which in addition to determining the RUG, is used to develop a care plan
                  for the beneficiary. Several of the MDS items are also reported on CMS’s
                  Nursing Home Compare Web site, which provides information about each
                  nursing home to the public.
                  SNFs must conduct assessments on or about the 5th, 14th, 30th, 60th, and
                  90th days of a Part A stay, as well as on certain other occasions, to account
                  for changes in the beneficiary’s care needs. 14 Accordingly, if a beneficiary
                  has a 100-day Part A stay, he or she will have at least five assessments.
                  For each assessment, the beneficiary may be categorized into a different
                  RUG.
                  Types of RUGs. Each RUG has a different Medicare per diem payment
                  rate. Medicare groups the RUGs into eight distinct categories. 15 Two
                  categories—Rehabilitation and Rehabilitation Plus Extensive Services—
                  are for beneficiaries who need physical therapy, speech therapy, or
                  occupational therapy, typically after a hip fracture or a stroke. In this
                  report, we refer to the RUGs in the two therapy categories as therapy
                  RUGs. The remaining six categories are for beneficiaries who require
                  little to no therapy. We refer to the RUGs in these categories as
                  nontherapy RUGs. At the time of our review, there were 53 RUGs. See
                  Appendix A for a description of the 53 RUGs.
                  Medicare Payments for Therapy RUGs. Medicare payment rates for
                  therapy RUGs are typically higher than the rates for nontherapy RUGs. In
                  addition, Medicare typically pays more for higher levels of therapy. The
                  therapy RUGs are divided into five levels: ultrahigh, very high, high,
                  medium, or low. The SNF categorizes each beneficiary into one of the
                  five therapy levels based primarily on the number of minutes of therapy
                  provided during the look-back period. 16 For example, if the beneficiary
                  received 45 minutes of therapy during the look-back period, he or she is
                  categorized into a low-therapy RUG, whereas if the beneficiary received
                  720 minutes, he or she is categorized into an ultrahigh therapy RUG.


                  13
                     The length of the look-back period varies depending upon the MDS item. For
                  example, a 7-day look-back period is used to determine the amount of therapy that was
                  provided, while a 14-day look-back period is used to determine whether dialysis was
                  provided. See CMS, RAI Manual 2.0, § 3.3 (the discussion of the look-back period
                  begins on page 3-29).
                  14
                     42 CFR § 413.343(b) and CMS, RAI Manual 2.0, § 2.5.
                  15
                    CMS, RAI Manual 2.0, §§ 6.3, 6.4, and 6.6. In FY 2011, CMS revised the eight
                  categories.
                  16
                       CMS, RAI Manual 2.0, § 6.6.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)        3
                  Medicare generally pays the most for ultrahigh therapy. See Appendix B
                  for further information on the therapy levels.
                  Changes to Medicare Payments to SNFs. For FYs 2011 and 2012, CMS
                  made a number of changes to SNF payments. Notably, for FY 2011, CMS
                  increased the number of RUGs from 53 to 66 to allocate payments more
                  accurately. 17 CMS also changed how SNFs account for therapy provided
                  to multiple beneficiaries concurrently or in group settings. 18 Further, SNFs
                  must complete a “change of therapy” assessment when the amount of
                  therapy provided no longer reflects the RUG and an “end of therapy”
                  assessment when therapy has been discontinued for 3 consecutive days. 19
                  Lastly, in FY 2012, CMS reduced payments to SNFs by approximately
                  $3.9 billion to correct for unintended excessive payments made in
                  FY 2011. 20
                  Despite these changes, the payment issues we highlight in this report,
                  which are based on 2009 data, are still relevant to the current system.
                  Notably, CMS still bases SNF payments for therapy RUGs on the amount
                  of therapy SNFs provided during the look-back period.
                  Documentation for Part A SNF Stays
                  CMS expects SNFs to document in the medical record the care that a
                  beneficiary needs and receives, as well as how he or she responds to the
                  care received. 21 CMS states, in particular, that good clinical practice
                  requires SNFs to document the number of minutes of therapy provided to
                  a beneficiary. 22 In addition, the medical record should support and be
                  consistent with the MDS.




                  17
                       74 Fed. Reg. 40288, 40338 (Aug. 11, 2009).
                  18
                    In concurrent therapy, the therapist works with two beneficiaries at the same time using
                  different treatments. For this type of therapy, SNFs are now required to allocate half the
                  total therapy minutes to each beneficiary when determining the RUG. See 74 Fed. Reg.
                  at 40315–40319; and CMS, RAI Manual 3.0, § 6.6. In group therapy, the therapist works
                  with four beneficiaries at the same time using the same or similar treatments. For this
                  type of therapy, SNFs are now required to allocate a quarter of the total therapy minutes
                  to each beneficiary when determining the RUG. See 76 Fed. Reg. 48486, 48514 (Aug. 8,
                  2011).
                  19
                       76 Fed. Reg. at 48517-48526.
                  20
                       76 Fed. Reg. at 48500.
                  21
                       CMS, RAI Manual 2.0, § 1.14. See also RAI Manual 3.0, § 1.3.
                  22
                       CMS, RAI Manual 2.0, § 1.14. See also RAI Manual 3.0, § 1.3, and ch. 3, § O.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)             4
                  CMS Oversight of SNFs
                  CMS contracts with State Survey and Certification agencies to determine
                  whether SNFs are in compliance with Federal requirements. 23 One of the
                  requirements that surveyors verify is the accuracy of the MDS. Surveyors cite
                  facilities for deficiencies if they do not comply with requirements, which may
                  affect their participation in Medicare. 24
                  In addition, CMS relies on various contractors to identify, prevent, and reduce
                  fraud, waste, and abuse for Medicare Part A payments, including SNF
                  payments. Medicare Administrative Contractors (MAC) are responsible for
                  processing and paying Part A claims. At their discretion, these contractors may
                  conduct targeted medical reviews of SNF claims to prevent improper
                  payments. 25 Other contractors overseeing SNFs include Recovery Audit
                  Contractors (RAC), which identify and recoup any overpayments made to
                  SNFs, and Zone Program Integrity Contractors and Program Safeguard
                  Contractors, which identify fraud and abuse and refer cases to law
                  enforcement, when appropriate.
                  Lastly, CMS monitors the accuracy of payments made to providers through the
                  Comprehensive Error Rate Testing (CERT) program. The CERT contractor
                  reviews a sample of claims to determine an error rate. CMS defines the error
                  rate as the percentage of total dollars that Medicare erroneously paid or
                  denied. For FY 2010, the error rate for inpatient SNF services was
                  3.3 percent. 26
                  Related Reports
                  The first study in this series found that from 2006 to 2008, SNFs
                  increasingly billed for higher paying RUGs, even though beneficiary
                  characteristics remained largely unchanged. 27 Additionally, for-profit
                  SNFs were far more likely to bill for higher paying RUGs. Furthermore,
                  348 SNFs had questionable billing, indicating that certain SNFs may be
                  routinely placing beneficiaries into higher paying RUGs regardless of the


                  23
                   CMS, State Operations Manual, Pub. No. 100-07, ch. 1, § 1010, rev. 1, issued
                  May 21, 2004.
                  24
                       42 CFR § 488.330.
                  25
                    CMS provides guidance to MACs on how to conduct medical reviews of SNF claims.
                  See Medicare Program Integrity Manual, Pub. No. 100-08, ch. 6, § 6.1.3, rev. 196,
                  issued March 30, 2007.
                  26
                     CMS, The Supplementary Appendices for the Medicare Fee-for-Service 2010 Improper
                  Payment Report, p.10. Accessed at https://www.cms.gov/Research-Statistics-Data-and-
                  Systems/Monitoring-Programs/CERT/Downloads/Supplementary-Appendices-for-the-
                  Medicare-Fee-for-Service-2010-Improper-Payment-Report.pdf on June 28, 2012.
                  27
                    OIG, Questionable Billing in Skilled Nursing Facilities, OEI-02-09-00202, December
                  2010.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)       5
                  beneficiaries’ care and resource needs. OIG recommended that CMS
                  (1) monitor overall payments to SNFs and adjust rates, if necessary;
                  (2) change the current method for determining how much therapy is
                  needed to ensure appropriate payments; (3) strengthen monitoring of SNFs
                  that are billing for higher paying RUGs; and (4) follow up on the SNFs
                  identified as having questionable billing. CMS concurred with all of the
                  recommendations but the second one, noting concerns about relying on
                  information from the beneficiary’s hospital stay to determine the
                  beneficiary’s therapy needs.
                  Another OIG study found that despite changes to the SNF payment system
                  in FY 2011 that were meant to be budget neutral, Medicare payments
                  increased by $2.1 billion, or 16 percent, from the last half of FY 2010 to
                  the first half of FY 2011. 28 Contrary to CMS’s expectations, in the first
                  half of FY 2011, SNFs billed for higher levels of therapy, which
                  contributed to the overall increase in payments. The data indicated that
                  CMS should adjust payment rates to address the significant increases in
                  payments to SNFs. As noted earlier, in FY 2012, CMS reduced payments
                  to SNFs by approximately $3.9 billion.

                  METHODOLOGY
                  We based this study on a medical record review of a random sample of
                  Part A SNF claims from calendar year 2009.
                  Selection of Sample for Medical Review
                  Using CMS’s National Claims History File, we first identified all Part A
                  SNF claims with a service date in 2009. 29 We grouped these claims by
                  stay using the admission date and identified the stays that ended in 2009.
                  We then grouped these stays into three strata defined by the length of the
                  stay and the number of claims. We selected a stratified simple random
                  sample of 245 stays and then selected 499 claims from these stays. 30
                  These claims project to the 6,445,273 claims in the population. See
                  Appendix C for more information about how we selected the stays and the
                  claims.




                  28
                   OIG, Changes in Skilled Nursing Facilities Billing in Fiscal Year 2011,
                  OEI-02-09-00204, July 2011.
                  29
                       In this report, we refer to claim line items as claims.
                  30
                    We stratified the sample in this way to meet the objectives of this study and our
                  companion study, Medicare Requirements for Quality of Care in Skilled Nursing
                  Facilities, OEI-02-09-00201, forthcoming.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)      6
                  Medical Record Review
                  We used a contractor to collect and review the medical records for each
                  sampled claim. The contractor made up to five attempts to obtain the
                  medical records. We had a 100-percent response rate.
                  We also contracted with medical record reviewers. The reviewers
                  consisted of three registered nurses, each of whom had at least 12 years of
                  SNF experience, and a physical therapist, an occupational therapist, and a
                  speech therapist. The nurses reviewed the records and consulted with the
                  therapists as needed. The reviewers used a standardized data collection
                  instrument that was based on Medicare coverage requirements, CMS
                  guidance for completing the MDS, and CMS guidance to MACs for
                  reviewing SNF claims. The instrument was developed in collaboration
                  with the reviewers and tested on a separate sample of claims. 31 The
                  reviewers conducted the medical review between April and September
                  2011.
                  The reviewers determined whether each claim met Medicare coverage
                  requirements that (1) the SNF stay be related to a condition that was
                  treated in the prior hospital stay, (2) the beneficiary needs and receives
                  daily skilled nursing or therapy, and (3) the beneficiary has a physician
                  order for skilled nursing or therapy. If the beneficiary became ineligible
                  for SNF care at some point during the stay, the reviewers indicated
                  approximately when the stay should have ended. In this report, we refer to
                  this group of claims as not meeting Medicare coverage requirements.
                  If a claim met the requirements above, the reviewers then focused on the
                  MDS items used to determine the RUGs. For each MDS item, the
                  reviewers determined whether the information reported by the SNFs for
                  the item was supported and consistent with the medical record. If an MDS
                  item was inaccurate, the reviewers recoded the item on the basis of their
                  review of the medical record.
                  For the MDS items related to therapy, the reviewers looked in the medical
                  record for the number of days and minutes of therapy provided to the
                  beneficiary during the look-back period and compared them to those
                  recorded on the MDS. The reviewers noted any inconsistencies and
                  recoded the MDS on the basis of their review of the medical record. They
                  also determined whether the therapy provided during the look-back period




                  31
                    We conducted a preliminary review of 25 claims to test the instrument and to ensure
                  consistency among the reviewers.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)        7
                  was reasonable and necessary. 32 For those claims in which they
                  determined that a portion of the therapy was not reasonable and necessary,
                  they estimated the amount of therapy that was reasonable and necessary
                  and recoded the MDS items. In addition, the reviewers noted any
                  inconsistencies between the amount of therapy provided during and after
                  the look-back period. 33
                  Analysis
                  We analyzed the information from the medical review to determine the
                  percentage of claims SNFs billed in error and the amount Medicare
                  inappropriately paid for them. To do this, we first determined the number
                  and percentage of claims that did not meet Medicare coverage
                  requirements. We projected this percentage to the population of Part A
                  SNF claims for stays that ended in 2009.
                  For the remaining claims, we generated a revised RUG for each claim on
                  the basis of the recoded MDS data from the medical reviewers. We used
                  CMS’s SAS program to generate the revised RUG. 34 If the original RUG
                  was a higher paying RUG than the revised RUG, we considered the claim
                  to be upcoded. Conversely, if the original RUG was a lower paying RUG
                  than the revised RUG, we considered the claim to be downcoded. We
                  calculated the overall percentage of claims that were inaccurate (i.e.,
                  upcoded or downcoded) and projected this rate to the population of Part A
                  SNF claims for stays that ended in 2009.
                  Next, we determined the total amount Medicare inappropriately paid for
                  SNF claims. For the claims that did not meet Medicare coverage
                  requirements, we calculated the amount that Medicare paid
                  inappropriately by multiplying the payment rate by the number of days
                  that did not meet Medicare coverage requirements. For the claims with
                  inaccurate RUGs, we determined the net difference between the amount
                  that was paid and the amount that should have been paid. We added this
                  to the amount that Medicare inappropriately paid for claims that did not


                  32
                     This is consistent with CMS’s instructions to the MACs for reviewing SNF claims.
                  CMS instructs medical reviewers to determine whether the services indicated on the
                  MDS were rendered and were reasonable and necessary. If the reviewer determines that
                  some services provided were not reasonable and necessary or were not supported in the
                  medical record, the reviewer enters the correct data and calculates the RUG. The MAC
                  then pays the claim according to the revised RUG. See Medicare Program Integrity
                  Manual, ch. 6, § 6.1.3, rev. 196, issued March 30, 2007.
                  33
                     The reviewers did not recode the MDS on the basis of this analysis.
                  34
                     We generated a RUG for each claim except in two instances. For two claims, the SNF
                  billed the default payment rate, which we considered to be appropriate on the basis of
                  Medicare policy. SNFs receive the default rate if they do not submit the MDS to
                  Medicare in accordance with the assessment schedule.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)         8
                  meet Medicare coverage requirements and projected it to the population of
                  all Part A SNF claims for stays that ended in 2009.
                  Lastly, we analyzed the extent to which SNFs misreported information on
                  the MDS for items that affect SNF payment. 35 For each category of MDS
                  items established by CMS, we calculated the percentage of claims
                  associated with inaccurate MDS information. 36 We also calculated the
                  overall percentage of claims associated with one or more inaccurate MDS
                  items. We projected the results to the population of all Part A SNF claims
                  for stays that ended in 2009.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  35
                    This analysis did not include the 12 claims that did not meet Medicare coverage
                  requirements for the entire claim period or that were billed at the default rate.
                  36
                       The categories of MDS items are listed in the RAI Manual 2.0, ch. 3.



Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)    9
                  FINDINGS
                  SNFs billed one-quarter of claims in error in 2009,
                  resulting in $1.5 billion in inappropriate Medicare
                  payments
                  On the basis of our medical record review, we found that SNFs billed an
                  estimated 25 percent of claims in error in 2009. Medicare inappropriately
                  paid $1.5 billion for these claims. This represents 5.6 percent of the
                  $26.9 billion paid to SNFs in 2009. See Table 1 for the percentage of SNF
                  claims that were in error and Appendix D for the confidence intervals.

                       Table 1: Percentage of SNF Claims That Were in Error, 2009
                                                                              Percentage of
                         Type of Error
                                                                                SNF Claims

                         Inaccurate RUGs                                              22.8%

                            Upcoded                                                   20.3%

                            Downcoded                                                 2.5%

                         Did Not Meet Coverage Requirements                           2.1%

                           Total error rate                                           24.9%

                       Source: OIG analysis of medical record review results, 2012.



                  SNFs billed inaccurate RUGs in 23 percent of claims
                  As noted earlier, SNFs use the MDS to assess beneficiaries and classify
                  them into RUGs. Each RUG is associated with a different payment rate.
                  SNFs billed inaccurate RUGs in 23 percent of claims. Most of these
                  claims were upcoded; far fewer were downcoded. Claims with inaccurate
                  RUGs amounted to a net $1.2 billion in inappropriate Medicare payments.
                  Notably, 20 percent of claims billed by SNFs had higher paying RUGs
                  than were appropriate. In these cases, the SNFs upcoded the RUGs on the
                  claims. For approximately half of these claims, SNFs billed for ultrahigh
                  therapy RUGs when they should have billed for lower levels of therapy or
                  nontherapy RUGs. 37
                  For 57 percent of the upcoded claims, SNFs reported providing more
                  therapy on the MDS than was indicated in the medical record. For a
                  quarter of the upcoded claims, reviewers determined that the amount of
                  therapy indicated in the beneficiaries’ medical records was not reasonable

                  37
                    The point estimate is 48 percent with a 95-percent confidence interval of 35 to
                  62 percent.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)    10
                  and necessary. For example, in one case, the SNF provided the highest
                  level of therapy to the beneficiary even though the medical record
                  indicated that the physician refused to sign the order for therapy. In
                  another example, the SNF provided an excessive amount of therapy to the
                  beneficiary given her condition. In another example, the SNF reported on
                  the MDS that speech therapy was provided even though the record
                  contained an evaluation of the beneficiary concluding that no speech
                  therapy was needed and that speech therapy had not been provided.
                  For the upcoded claims, the difference in payments between the RUGs
                  billed by the SNFs and the RUGs supported by the medical records was
                  often quite large. In many instances, it amounted to over $100 per day,
                  and in one case, the difference was $414 per day.
                  The remaining 3 percent of claims had lower paying RUGs than were
                  appropriate. In these cases, the SNFs downcoded the RUGs on the claims.
                  The difference in payments between the RUGs billed by the SNFs and the
                  RUGs supported by the medical records was typically less than $100 per
                  day. In the most extreme case, the difference amounted to $166 per day.
                  Two percent of SNF claims did not meet Medicare coverage
                  requirements
                  A smaller percentage of claims did not meet Medicare coverage
                  requirements. For some of these claims, beneficiaries were not eligible for
                  SNF care, either because they did not need skilled nursing or therapy on a
                  daily basis or because there were no physician orders for these services.
                  For the remaining claims, the beneficiaries became ineligible for SNF care
                  at some point during the claim period because they no longer needed or
                  received skilled nursing or therapy on a daily basis.

                  SNFs misreported information on the MDS for
                  47 percent of claims
                  SNFs reported inaccurate information, which was not supported or
                  consistent with the medical record, on at least one MDS item for
                  47 percent of claims. SNFs use the MDS to assess each beneficiary’s
                  clinical condition, functional status, and expected and actual use of
                  services. Certain items on the MDS are used to determine the RUG;
                  therefore, misreporting information for these items can lead to inaccurate
                  RUGs and inappropriate payments. 38 SNFs also use the MDS to develop
                  care plans for each beneficiary, so inaccurate information on the MDS can
                  affect care. In addition, several MDS items are reported on CMS’s



                  38
                       Inaccuracies in the MDS items do not always result in a change in the RUG.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   11
                  Nursing Home Compare Web site, which provides information to the
                  public about each nursing home.
                  For 30 percent of claims, SNFs misreported the amount of therapy that the
                  beneficiaries received or needed. As noted earlier, the amount of therapy
                  that SNFs report on the MDS largely determines the RUG and Medicare
                  payments to SNFs. See Table 2 for MDS categories with misreported
                  information and Appendix E for additional categories and the confidence
                  intervals.

                      Table 2: MDS Categories With Misreported Information

                         MDS Category With Misreported            Percentage of Claims
                         Information

                         Therapy (i.e., physical,
                         occupational, speech)                                      30.3%

                         Special Care (e.g., intravenous
                         medication, tracheostomy care)                             16.8%

                         Activities of Daily Living (e.g., bed
                         mobility, eating)                                           6.5%

                         Oral/Nutritional Status (e.g.,
                         parenteral feeding)                                         4.8%

                         Skin Conditions and Treatments
                         (e.g., ulcers, wound dressings)                             2.4%

                       Source: OIG medical record review, 2012.
                       Note: The rows do not sum to 47 percent because some claims had
                       more than one problem.



                  In addition, reviewers found several instances in which SNFs provided
                  more therapy during the look-back period than they did during periods that
                  did not determine payment rates. In one example, the SNF provided 90 to
                  110 minutes of therapy a day to the beneficiary during the look-back
                  period; however, after that period, the SNF provided only about half that
                  amount of therapy to the beneficiary. In another example, the SNF
                  provided 50 to 55 minutes of therapy a day to the beneficiary during the
                  look-back period. It lowered the amount to 30 to 40 minutes a day during
                  the rest of the coverage period but then raised it back to 50 to 55 minutes
                  during the next look-back period.
                  For 17 percent of claims, SNFs misreported whether the beneficiaries
                  received special care. The inaccuracies came primarily from one MDS
                  item in this category—intravenous medication. At the time of our review,
                  SNFs were allowed to report intravenous medication if the beneficiary
                  received it in the hospital prior to or during the SNF stay. For these
                  claims, the medical records either did not indicate that intravenous



Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   12
                  medication was provided during the hospital or SNF stay or clearly
                  contradicted that these services were provided. 39
                  For 7 percent of claims, SNFs misreported the amount of assistance
                  beneficiaries needed with activities of daily living (e.g., bed mobility,
                  transfers, eating, and toilet use). Beneficiaries who need high levels of
                  assistance may be placed into higher paying RUGs. In several cases,
                  SNFs reported on the MDS that beneficiaries needed more assistance than
                  was indicated in the medical record. For example, one SNF reported that
                  a beneficiary needed extensive assistance with transferring between two
                  locations, such as from a bed to a chair; however, the medical record noted
                  that the beneficiary was able to do this independently.
                  SNFs also misreported MDS items related to oral and nutritional status
                  and items related to skin conditions and treatments. Notably, for the items
                  related to skin conditions and treatments, SNFs did not always report the
                  correct number or stage of skin ulcers or they reported the presence of
                  burns or open lesions inaccurately. They also did not always correctly
                  report skin treatments, such as surgical wound care or ulcer care.




                  39
                    In FY 2011, CMS changed the rules about reporting intravenous medication on the
                  MDS; it no longer allowed SNFs to report whether it was provided during the prior
                  hospital stay. It also revised the RUGs so that reporting this item no longer placed the
                  beneficiary into a higher paying RUG.


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)           13
                  CONCLUSION AND RECOMMENDATIONS
                  SNFs billed one-quarter of claims in error in 2009, resulting in $1.5 billion
                  in inappropriate Medicare payments. The majority of the claims in error
                  were upcoded; many of these were for ultrahigh therapy. The remaining
                  claims in error were downcoded or did not meet Medicare coverage
                  requirements. In addition, SNFs misreported information on the MDS for
                  47 percent of claims. SNFs commonly misreported the amount of therapy
                  the beneficiary received or needed, which largely determines how much
                  Medicare pays the SNF.
                  We recognize that CMS has made several significant changes to SNF
                  payments for FYs 2011 and 2012. However, more needs to be done to
                  reduce inappropriate payments to SNFs. Given the findings of this report
                  and our prior report, further actions are needed to deter SNFs from billing
                  inappropriately and to prevent Medicare from paying for these claims.
                  Considering the high cost of SNF services, substantial savings to the
                  Government could result if CMS focused additional attention on these
                  payments.
                  Therefore, we recommend that CMS:
                  Increase and Expand Reviews of SNF Claims
                  CMS should instruct its contractors to conduct more medical reviews of
                  SNF claims. CMS should also expand the scope of these medical reviews
                  to more closely scrutinize the MDS items that SNFs commonly misreport.
                  As part of these efforts, contractors should identify SNFs or SNF chains
                  with recurring problems. They should target these SNFs in their reviews
                  and possibly refer them for further investigation, depending upon the
                  nature of the issues. These efforts will help to ensure that SNF payments
                  are accurate and that SNFs are reporting information on the MDS
                  correctly.
                  Use Its Fraud Prevention System To Identify SNFs That Are
                  Billing for Higher Paying RUGs
                  Our current report provides further evidence that some SNFs are
                  incorrectly reporting certain MDS items, such as therapy and activities of
                  daily living, to place beneficiaries into higher paying RUGs. CMS should
                  use its Fraud Prevention System to identify and target these SNFs.
                  Specifically, CMS should target SNFs that have a high percentage of
                  claims for ultrahigh therapy and for high levels of assistance with
                  activities of daily living.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   14
                  Monitor Compliance With the New Therapy Assessments
                  As of October 2011, SNFs must complete a “change of therapy”
                  assessment when the amount of therapy provided no longer reflects the
                  RUG and an “end of therapy” assessment when therapy is discontinued for
                  3 days. Under this new policy, SNFs are paid less when a beneficiary’s
                  need for therapy decreases or ends. This policy helps to align payments
                  for therapy to beneficiaries’ needs and reduces the incentive to provide
                  substantially more therapy during the look-back period than during
                  periods that do not determine payment rates. However, the success of this
                  policy relies on SNFs’ completing the new assessments appropriately.
                  CMS should instruct its MACs and RACs to closely monitor SNFs’
                  utilization of these assessments through analyses of claims data. Such
                  analyses will identify SNFs that are using the assessments infrequently or
                  not at all. The MACs and RACs should then target these SNFs for review
                  to establish whether therapy assessments are being completed, as required.
                  Change the Current Method for Determining How Much
                  Therapy Is Needed To Ensure Appropriate Payments
                  The findings of this report provide further evidence that CMS needs to
                  change how it pays for therapy. Currently, the amount of therapy that a
                  SNF provides to the beneficiary during the look-back period largely
                  determines the amount that Medicare pays the SNF. This method creates
                  incentives for SNFs to provide and bill for high levels of therapy when
                  these levels may not be needed.
                  We are aware that CMS is considering two alternative approaches for
                  determining how it pays for therapy. In the first option, CMS is
                  considering basing payment for therapy RUGs on patient need, by using
                  patient diagnoses and service needs to predict the appropriate level of
                  therapy. In the second option, CMS would also predict the appropriate
                  level of therapy but would then reconcile payments after the services have
                  been provided. While our review does not provide information about
                  which method is more appropriate, it does show that CMS needs to change
                  how it pays for therapy to reduce the incentives for SNFs to provide more
                  therapy than necessary and to better align payments to beneficiaries’
                  needs.
                  Improve the Accuracy of MDS Items
                  CMS should increase its efforts to ensure that SNFs are completing the
                  MDS accurately. This is critical to ensuring that SNF payments are


Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   15
                  accurate and that beneficiaries are assessed and cared for appropriately.
                  It is also essential because several MDS items are published on CMS’s
                  Nursing Home Compare Web site, which provides information to the
                  public about each nursing home.
                  Specifically, CMS should instruct the nursing home surveyors to more
                  closely monitor the accuracy of the MDS. Surveyors should particularly
                  focus on the categories of MDS items that we identified as problematic
                  and cite facilities for deficiencies when necessary. Additionally, CMS
                  should instruct the MACs to provide education to all SNFs, as well as
                  specific training to selected SNFs, to improve the accuracy of their MDS
                  reporting.
                  Follow up on the SNFs That Billed in Error
                  In a separate memorandum, we will refer to CMS for appropriate action
                  the SNFs with claims in our sample that had inaccurate RUGs or that did
                  not meet coverage requirements.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   16
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all six of our recommendations. CMS stated that it
                  has taken and continues to take proactive steps to reduce inaccurate,
                  medically unnecessary, and fraudulent claims by SNFs.
                  CMS concurred with our first recommendation and stated that it will issue
                  a Technical Assistance Letter to the MACs with a link to the OIG report.
                  If the MACs choose to increase and expand their review of SNFs, CMS
                  will ask that they more closely scrutinize the MDS items most commonly
                  misreported and identify specific SNFs or SNF chains with reoccurring
                  issues and focus their reviews on them. In addition, in August 2012, CMS
                  issued a Comparative Billing Report targeted to 5,000 SNFs to help them
                  identify potential errors in their billing practices and make changes to
                  prevent improper billing and payment in the future.
                  CMS concurred with our second recommendation. It stated that it is
                  committed to building reliable models in the Fraud Prevention System that
                  can detect and generate alerts for suspicious billing behavior and it is
                  currently developing a SNF Model that examines claims data.
                  CMS concurred with our third recommendation and stated that it is
                  conducting internal monitoring activities related to SNF utilization and
                  provider reaction to the FY 2012 PPS final rule policies. As part of this
                  monitoring, it is analyzing the number of ‘change of therapy’ assessments
                  that are being completed. In addition, it will conduct further monitoring
                  activities, including analyses by provider type and the provision of therapy
                  by patient risk scores.
                  CMS concurred with our fourth recommendation and stated that it plans to
                  research alternative SNF payment approaches for therapy and eventually
                  develop an implementable model to account for therapy furnished in
                  SNFs.
                  CMS concurred with our fifth recommendation and stated that it will
                  convene a meeting with surveyors representing several States and all
                  10 regions to discuss the onsite survey process and how to improve its
                  effectiveness with investigating MDS items. CMS also noted that it has
                  recently clarified guidance related to surveyor citation of MDS
                  assessments and continues to review those and related guidance. It also
                  plans to conduct additional surveyor training related to the MDS.
                  CMS concurred with our sixth recommendation and will review the data
                  provided by OIG and take appropriate actions consistent with the agency’s
                  policies.



Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   17
                  We support CMS’s efforts to address these issues. For the full text of
                  CMS’s comments, see Appendix F.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   18
                  APPENDIX A

                  Description of the 53 Resource Utilization Groups* in Effect
                  During Our Review Period


                                                                 Therapy       Per Diem Rate         Per Diem Rate
                RUG Category                       RUG
                                                                   Level              FY2009                FY2010
                                              Therapy RUGs
                                                  RUX           Ultrahigh               $623                $617
                                                  RUL           Ultrahigh               $547                $546
                                                  RVX           Very high               $472                $468
                                                  RVL           Very high               $440                $437
               Rehabilitation Plus
                                                  RHX                High               $400                $396
               Extensive Services
                                                  RHL                High               $393                $386
                                                  RMX            Medium                 $458                $449
                                                  RML            Medium                 $420                $413
                                                  RLX                Low                $325                $319
                                                  RUC           Ultrahigh               $529                $529
                                                  RUB           Ultrahigh               $485                $485
                                                  RUA           Ultrahigh               $462                $463
                                                  RVC           Very high               $425                $421
                                                  RVB           Very high               $404                $401
                                                  RVA           Very high               $363                $364
               Rehabilitation                     RHC                High               $370                $365
                                                  RHB                High               $353                $349
                                                  RHA                High               $328                $326
                                                  RMC            Medium                 $340                $335
                                                  RMB            Medium                 $331                $326
                                                  RMA            Medium                 $323                $320
                                                  RLB                Low                $300                $294
                                                  RLA                Low                $256                $252
                                            Nontherapy RUGs
                                                   SE3                                  $375                $362
               Extensive Services                  SE2                                  $319                $309
                                                   SE1                                  $284                $276
                                                   SSC                                  $279                $272
               Special Care                        SSB                                  $264                $258
                                                   SSA                                  $259                $253
                                                   CC2                                  $278                $270
                                                   CC1                                  $253                $248
                                                   CB2                                  $241                $236
               Clinically Complex
                                                   CB1                                  $231                $225
                                                   CA2                                  $229                $223
                                                   CA1                                  $214                $211
             * RUG.
                                                                                      Continued on next page.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)                   19
                  APPENDIX A (CONTINUED)

                  Description of the 53 Resource Utilization Groups* in Effect
                  During Our Review Period


                                                                 Therapy      Per Diem Rate          Per Diem Rate
                  RUG Category                     RUG
                                                                   Level            FY 2009                FY 2010
                                      Nontherapy RUGs (continued)
                                                   PE2                                  $221                $217
                                                   PE1                                  $217                $214
                                                   PD2                                  $211                $206
                                                   PD1                                  $208                $203
                 Reduced Physical                  PC2                                  $200                $197
                 Function                          PC1                                  $197                $196
                                                   PB2                                  $176                $175
                                                   PB1                                  $174                $172
                                                   PA2                                  $173                $171
                                                   PA1                                  $168                $166
                                                    IB2                                 $205                $202
                                                    IB1                                 $202                $199
                 Impaired Cognition                 IA2                                 $185                $183
                                                    IA1                                 $177                $177
                                                   BB2                                  $203                $200
                                                   BB1                                  $197                $196
                 Behavior Problems
                                                   BA2                                  $184                $182
                                                   BA1                                  $171                $169

               Source: 73 Fed. Reg. 46424–26 (Aug. 8, 2008); 74 Fed. Reg. 40298–300 (Aug. 11, 2009).
               The amounts are based on unadjusted urban rates. There is an urban and a rural payment
               rate for each RUG. The urban payment rate is lower than the rural rate for the therapy
               RUGs.

               *RUG.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)                   20
                  APPENDIX B


                  Therapy Minutes Received by Therapy Level

                                                   Therapy Minutes
                                                Received During the
                       Therapy Level              Look-Back Period
                       Ultrahigh                           720 or more
                       Very High                              500–719
                       High                                   325–499
                       Medium                                 150–324
                       Low                                     45–149

                      Source: Centers for Medicare & Medicaid
                      Services, Resident Assessment Instrument
                      Manual (RAI) Version 2.0, ch. 6. See also RAI
                      Manual Version 3.0, ch. 6.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   21
                    APPENDIX C

                    Sample Design
                                                           Number of       Number       Number of     Number
                                                             Stays in      of Stays      Claims in   of Claims
                                                                  the         in the           the       in the
        Stratum      Stratum Description                   Population       Sample      Population     Sample
                     Length of stay less than 21 days
                     in 2009 and 3 or fewer claims in
                     2009
                     We selected all claims from
        1            each stay.                             1,264,073             55     1,792,685         78
                     Length of stay 21 or more days
                     in 2009 and 3 or fewer claims in
                     2009
                     We selected all claims from
        2            each stay.                               435,893             45     1,133,322        117
                     Stays with over 3 claims in 2009
                     If the stay had 4 to 7 claims, we
                     randomly selected 2. If the stay
                     had over 7 claims, we randomly
                     selected 40 percent of the
        3            claims.                                  668,799           145      3,519,266        304
            Total                                           2,368,765           245      6,445,273        499
       Source: Office of Inspector General medical record review, 2012.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)              22
                  APPENDIX D
                  Sample Sizes, Point Estimates, and 95-Percent Confidence
                  Intervals for Estimates Presented in the Report



       Characteristic                                         Sample            Point                95-Percent
                                                                Size        Estimate          Confidence Interval

       SNF claims in error in 2009                                 499        24.9%                  19.9%–30.4%

       SNF claims with inaccurate RUGs                             499        22.8%                  18.0%–28.2%
       SNF claims with higher paying RUGs than
       were appropriate (upcoded)                                  499        20.3%                  15.6%–25.6%
       Upcoded SNF claims that had an ultrahigh
       RUG                                                         101        48.2%                  34.9%–61.7%
       Upcoded SNF claims in which SNFs reported
       providing more therapy on the MDS than was
       indicated in the medical record                             101        56.8%                  42.8%–70.2%
       Upcoded SNF claims in which reviewers
       determined that the amount of therapy was not
       reasonable and necessary                                    101        25.6%                  14.6%–39.4%
       SNF claims with lower paying RUGs than were
       appropriate (downcoded)                                     499          2.5%                  1.3%–4.5%
       SNF claims that did not meet Medicare
       coverage requirements                                       499          2.1%                  0.7%–4.7%
       Total inappropriate Medicare payments for
       SNF claims                                                  499    $1.5 billion   $988 million–$2.0 billion
       Inappropriate Medicare payments in proportion
       to total payments to SNFs in 2009                           499          5.6%                  3.7%–7.6%
       Medicare payments for SNF claims with
       inaccurate RUGs                                             499    $1.2 billion   $736 million–$1.6 billion
       SNF claims that had inaccurate information on
       the MDS                                                     487        47.3%                  41.2%–53.5%

       Source: Office of Inspector General medical record review, 2012.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)                   23
                  APPENDIX E

                  Point Estimates and 95-Percent Confidence Intervals of
                  Minimum Data Set* Categories With Misreported Information


                                                                         Point Estimate              95-Percent
                        MDS Category                                            (n=487)      Confidence Interval

                        Therapy minutes and days for physical,
                                                                                  30.3%              24.7% – 36.3%
                        occupational, and speech therapy
                        Special care (e.g., intravenous
                                                                                  16.8%              12.3% – 22.1%
                        medication, tracheostomy care)
                        Activities of daily living (e.g., bed
                                                                                   6.5%                4.1% – 9.7%
                        mobility, eating)
                        Oral/nutritional status (e.g., parenteral
                                                                                   4.8%                2.5% – 8.2%
                        feeding)
                        Skin conditions and treatments
                                                                                   2.4%                1.0% – 4.8%
                        (e.g., ulcers, wound dressings)
                        Nursing rehab/restorative care (e.g.,
                        grooming, communication, transfer)                         0.8%                0.2% – 2.2%
                        Continence                                                 0.6%                0.1% – 1.8%
                        Problem conditions (e.g., fever,
                        delusions, vomiting)                                       0.6%                0.0% – 2.4%
                        Disease diagnosis                                          0.5%                0.0% – 2.0%
                        Medications                                                0.2%                0.0% – 1.2%
                        Physician orders                                           0.2%                0.0% – 1.0%
                        Respiratory therapy                                        0.2%                0.0% – 1.0%
                        Physician visits                                           0.1%                0.0% – 1.0%
                        Cognitive patterns                                         0.0%                       N/A
                        Communication/hearing patterns                             0.0%                       N/A
                        Mood and behavior patterns                                 0.0%                       N/A
                        Time awake                                                 0.0%                       N/A

                       Source: Office of Inspector General medical record review, 2012.
                       * MDS




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)                   24
                       APPENDIX F

                       Agency Comments

     ·',p•tc. ..,.,
    (-l-	
     -~..,,
       ........ (; 	
                        DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers for Medicare & Medicaid Services


                                                                                                  Administrator 

                                                                                                  Washington, DC 20201




                       DATE:          SEP 2 7 ZOll

                       TO: 	         Daniel R. Levinson 

                                     Inspector General 

                                                         /S/
                       FROM: 	       Marilyn Ta~nner 

                                     Acting ~dmihistrator   



                       SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Inappropriate Payments to
                                  Skilled Nursing Facilities Cost Medicare More Than a Billion Dollars in 2009
                                  (OEI-02-09-00200)


                       Thank you for the opportunity to review and comment on the OIG draft report titled,
                       "Inappropriate Payments to Skilled Nursing Facilities Cost Medicare More lban a Billion
                       Dollars in 2009," (OEI-02-09-00200). The Centers for Medicare & Medicaid Services (CMS)
                       appreciates the time and resources OIG has utilized in reviewing this issue.

                       The CMS has taken and continues to take proactive steps to reduce inaccurate, medically
                       unnecessary, and fraudulent claims by skilled nursing facilities (SNFs). CMS is committed to
                       identifying and educating SNFs who consistently bill for a high number of services specifically
                       for higher paying resource utilization groups (RUGs). lbe measures implemented by CMS
                       include issuing a Comparative Billing Report (CBR) focused on SNFs with high therapy
                       utilization, implementing internal monitoring activities related to SNF utilization, and utilizing
                       the Fraud Prevention System to look for aberrant billing practices. These efforts are designed to
                       address the issues the OIG has found over the past few years with billing by SNFs as well as the
                       concerns expressed by the Medicare Payment Advisory Commission regarding SNFs billing
                       improperly for therapy to obtain additional Medicare payments. These initiatives are discussed
                       in greater detail in CMS's responses to the OIG's recommendations.

                       lbe findings contained in this report reflect OIG's review ofSNF claims from 2009 to determine
                       if the information reported on the Minimum Data Set (MDS) was consistent and supported by
                       documentation in the medical record. lbe SNFs use the information on the MDS to assign
                       beneficiaries to RUGs. The amount Medicare pays the SNFs is based on the RUG level of a
                       beneficiary. lbis report is the second in a series of reports about SNF payments and quality of
                       care.

                       lbe OIG found that in 2009, one-quarter of all claims billed by SNFs were in error. This
                       resulted in a potential $1.5 billion in inappropriate payments. Upcoding, mainly for ultra-high
                       therapy, was the error seen on the majority of the claims. The other claims were either




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)                                25
                  APPENDIX F (CONTINUED)




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   26
                  APPENDIX F (CONTINUED)




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   27
                  APPENDIX F (CONTINUED)




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   28
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional
                  office, and Nancy Harrison and Meridith Seife, Deputy Regional
                  Inspectors General.
                  Judy Kellis served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the New York regional office who
                  conducted the study include Judy Bartlett. Central office staff who
                  provided support include Kevin Farber, Sandy Khoury, Berivan Demir
                  Neubert, Sue Nonemaker, Debra Roush, and Julie Taitsman.




Inappropriate Payments to SNFs Cost Medicare More Than a Billion Dollars in 2009 (OEI-02-09-00200)   29
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
